Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




“KNOW YOUR N(JMBERrr BROCHURE

   EXPERIENCES   OF DIALYSIS   FACILITIES
                          OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity cf the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The Inspector
General informs the Secretary of program and management problems and recommends legislative,
regulatory, and operational approaches to correct them.




                  OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The inspection reports provide findings and recommendations on the eftlciency,
vulnerability, and effectiveness of departmental programs.

OEI’S Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General.

Project staff included:


   DALLAS REGION
                                                           HEADQUARTERS
   Michelle Adarns, Ph.D.
                                                  Mary Beth Clarke
   Ruth Ann Dorrill
                                                        Brian Ritchie
   Karen Erickson, Intern
                                                  Barbara Tedesco
   Sarah Taylor

   Judy Tyler

   Nancy Watts



For additional copies of this report, please contact the Dallas Regional Office at (800) 848-8960.
Department        of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




“KNOW YOUR
 NUMBER”                     BROCHURE


   EXPERIENCES        OF DIALYSIS     FACILITIES




             +W       ‘-i
         $*                 JUNE GIBBS BROWN
         ~                  Inspector General
         x
         ‘b ~
          %++
            4+~xG              JANUARY 1997
             -2
                               OEI-06-95-O0321
                EXECUTIVE                            SUMMARY

PURPOSE

This study describes the experiences of renal dialysis facilities in using the Health Care
Financing Administration’s (HCFA) “Know Your Number” brochure to educate end stage
renal disease (ESRD) patients on how to monitor the adequacy of their dialysis treatment.

BACKGROUND         AND METHODOLOGY

By Medicare’s definition, ESRD is “that stage of renal impairment that appears irreversible
and permanent, and requires a regular course of dialysis or kidney transplantation to maintain
life. ” Concern has grown over the adequacy of hemodialysis with the recent release of the
EMU.1 Core Indicators Workgroup’s report, conducted as part of HCFA’s and the 18
contracting ESRD Network Organization’s quality assurance and continuous improvement
efforts. This report found that only 43 percent of patients were receiving adequate
hemodialysis.

The ESRD brochure “Know Your Number” was developed out of this concern. It’s purpose
is to educate the approximately 156,000 in-center hemodialysis patients so they may better
determine the adequacy of their treatment and become more proactive in the treatment
process. To ascertain the experience with and obtain the perspectives of facilities’ staff
regarding the brochure, we randomly surveyed 132 facilities treating hemodialysis patients.

FINDINGS

Facilities who received the brochure overwhelmingly reported the brochure includes useful
information and most said it is somewhat or very easy for patients to understand.     These
facilities said the brochure allows staff to help patients become actively involved in their own
dialysis, encourages patient compliance with their recommended treatment, and its’ content is
sometimes being used or will be used in facilities’ educational outreach materials.

However, 22 percent of facilities reported ~t receiving the brochure. Some who got it,
didn’t fully disseminate it to patients. Furthermore, we found 21 percent of facilities do ~t
calculate patients’ URR or KT/V numbers on a monthly basis. Facilities calculating these
numbers on a monthly basis were much more likely to also distribute the brochure and have
patients who participate more proactively in their dialysis. This finding clearly highlights an
important interaction between facility practice and the effectiveness of the brochure.




                                                 i
DISSEMINATION

Seventy six percent of facilities repotied receiving the brochure, 22 percent said they did
not. All but 13 percent of receiving facilities distributed the brochure, half to every patient
and half to an average of 69 percent of their p~”ents. Brochures were frequently (74
percent) personally handed to pti”ents, ofien accompanied by an explanation from a
registered nurse (84 percent).

Facilities @ fully distributing the brochure said many patients wouldn’t understand the
brochure’s content or they didn’t receive enough brochures to distribute it more extensively,
Facilities distributing the brochure most commonly handed the brochure to patients and/or
placed it somewhere accessible in their facilities.

Registered nurses provided the majority of brochure explanations, with almost all facilities
saying at least half or more of their patients appeared alert during their explanations.

BROCHURE’S      EFFECTIVENESS

Seventy-two percent of facilities rated the brochure’s effectiveness as a patient educti”onal
tool as either excellent or good, and 66 percent said the brochure was somewhat, or very,
easy for their pti”ents to understand.

Forty-six percent of facilities reported most or all of their patients wanted to know their own
URR or KT/V number after receiving the brochure, and 47 percent said half or more of their
patients asked questions about the brochure’s content.

Almost all facilities (98 percent) said patients need to know the information in the brochure.
Eighty-two percent said a brochure was an appropriate method for communicating this
information.

DIALYSIS    ADEOUACY

Facilities sazii at least 50 percent of their patients are interested in the adequacy of their
dhzlysis, with 29 percent tnzcking their numbem month-to-month.

Clearly, the brochure’s effectiveness cannot be assessed without considering facilities’
practices, and in the process of conducting our study, we found not all facilities calculate
dialysis adequacy measures on a monthly basis or routinely share them with their patients.

Only 77 percent of facilities calcukhte p~”ents’ numbers at least monthly, with 21 percent
doing this only quatierly.   Futiher, only 53 percent of facilities ~“ve pti”ents their numbens
all the time; many do so far less, 16 percent do this less than half the time.

Facilities who give patients their numbers monthly, or more often, were much more likely to
have distributed the brochure to every patient and to have patients who track their numbers.
RECOMMENDATIONS

Overall, we found the brochure has the potential to serve as an effective part of a broader

strategy of improving patients’ understanding of adequate dialysis and enlisting their support

in monitoring the adequacy of their dialysis. The “Know Your Number” brochure was given

a positive assessment by facilities receiving it. However, the brochure was not received by

all facilities nor was it fully distributed or explained to all patients by all receiving facilities.


It seems clear that the brochure’s effectiveness in educating patients and involving them in

monitoring dialysis still is heavily dependent upon facility practices and the quality of staff-

patient relationships.


Based on our findings, we recommend        that HCFA take the following actions to improve

kidney dialysis:


DISSEMINATION.         Assure all facilities receive an ample supply of brochures and

encoumge them to distribute a brochure to every patient. HCFA might also consider

providing guidelines to facilities on effective dissemination approaches.


BROCHURE CONTENT & FORMAT.                   Simplify the language and concepts as much as

possible in any subsequent or revised patient brochures.   Consideration might be given to

developing alternate versions of the brochure for different reading levels, and to adding

greater use of color and graphics to gain interest and promote patient understanding.


CONTINUING PATIENT EDUCATION.                  Encourage continuing efforts by      facilities to

educate patients and to reinforce the importance of patient understanding and       monitoring of

the adequacy of their dialysis. A training video to introduce and/or reinforce      the brochure

concepts might also prove effective, based on the suggestions and experiences        of some

facilities.


USE OF ADEQUACY MEASURES. Encourage facilities to calculate dialysis adequacy

measures on a monthly basis and to share these numbers with patients on a regular basis, in

order for the brochure to achieve its intended impact on patients and facilities.


Additional   OffIce of InsmXtor General Work


A companion report by the Inspector General’s office (OEI-06-95-O0320) provides

information about perspectives of dialysis patients regarding the “Know Your Number”

brochure. The report describes how successful the brochure was in increasing patient

awareness of information about adequate dialysis, how it is measured, how patients know if

they have achieved it, and what they can do to improve their dialysis. Additionally, it

highlights how the brochure has helped enhance the dialogue between facilities and patients

about adequate dialysis and the use of URR or KT/V numbers to monitor adequacy of

dialysis treatment. The report also addresses problems with brochure dissemination, lack of

patient familiarity with dialysis tests used by their facility and with target numbers indicating

dialysis adequacy, even among patients receiving the brochure.



                                                    .. .
                                                    m
AGENCY        COMMENTS

The Health Care Financing Administration (HCFA) concurred with all the report’s
recommendations.   We appreciate their responsiveness to our proposals. However,        we have
a new concern that has arisen since we issued our draft report.

We originally recommended that HCFA encourage facilities to calculate dialysis adequacy
monthly and share these numbers with patients on a regular basis. HCFA informed us that
they had no requirement for facilities to measure the adequacy of dialysis at prescribed
intervals but that their revised ESRD Conditions for Coverage will require facilities to
calculate the adequacy of dialysis quarterly. This is in marked constrast to the upcoming
National Kidney Foundation’s Dial ysis Outcome Quality Initiative guidelines which
recommend a standard practice guideline of a monthly URR or KT/V calculation, not
quarterly calculations.   We are concerned that facilities will interpret HCFA’S Conditions for
Coverage as the acceptable standard and conduct adequacy testing on] y quarterly.

In our view,      this could pose a severe health risk for ESRD patients whose dialysis could go
three months       before needed corrections could be made to their treatment. We are convinced
that facilities    should be required to calculate adequacy numbers monthly and we urge HCFA
to reconsider     ‘or amend the Conditions for Coverage accordingly.




                                                   iv
                                                                                                                   4




                        TABLE                 OF        CONTENTS

                                                                                                        PAGE

EXECUTIVE          SUMMARY          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4


     Overview    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ,4


  Dissemination       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4


 Brochure’s      Effectiveness    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ,8


 Dialysis Adequacy        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


AGENCY          COMMENTS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


ENDNOTES          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES


A: Profiles:      Respondent     Facility Information     and Patient Demographics         . . . . . . .   A-1


B: Confidence Intervals and Tests for Significance                . . . . . . . . . . . . . . . . . . . . . B-1


C:    Text ofAgency      Comments       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .C-l
                             INTRODUCTION

PURPOSE

This study describes the experiences of renal dialysis facilities in using the Health Care
Financing Administration’s (HCFA) “Know Your Number” brochure to educate end stage
renal disease (EM?D) patients on how to monitor the adequacy of their dialysis treatment.

BACKGROUND

By Medicare’s definition, ESRD is “that stage of renal impairment that appears irreversible

and permanent, and requires a regular course of dialysis or kidney transplantation to maintain

life.”’ Although some Americans with chronic kidney failure receive kidney transplants, the

majority receive either hemodialysis or peritoneal dialysis treatment.”3 Over 186,000 ESRD

patients currently receive some form of dialysis therapy in the United States. Although

dialysis is expensive and is not a cure, the treatments can greatly prolong an ESRD patient’s

life.


As a result of the Social Security Amendments of 1972 (P.L. 92-603), ESRD patients may

qualify for Medicare under the renal disease provision which pays for 80 percent of the cost

of the treatment no matter how old they are. To qualify for Medicare a person must: 1)

have worked long enough to be insured under the Social Security program, or be the

spouse/child of someone who has; or 2) already be receiving Social Security benefits. If a

person isn’t eligible for Medicare, they may qualify for Medicaid if their income is below a

certain level.


To conduct oversight activities assuring the appropriateness of services for ESRD patients,

Congress passed the ESRD Amendments of 1978 (P.L. 95-292) authorizing the establishment

of ESRD Network Organizations.      Currently, the Health Care Finance Administration

contracts with 18 ESRD Network Organizations throughout the United States. In striving for

quality assurance and continuous improvement, the ESRD Networks, together with HCFA

and the renal community, worked to implement the ESRD Health Care Quality Improvement

Program. This program allows the ESRD Networks and HCFA to track improvements in

health care provided to renal Medicare beneficiaries through the development of quaMy

indicators.


ESRD Core Indicators Proiect


In 1994 the IZSRD Health Care Quality Improvement Program conducted the

National/Network ESRD Core Indicators Project to assist providers of ESRD services in

assessing and improving the care provided to ESRD patients. The fwst phase of this project

targeted adult in-center hemodialysis patients receiving care in the last quarter of 1993. The

project’s focus was on establishing a consistent clinical database of key components of care.

Such clinical measures included the determination of the adequacy of dialysis using the pre-

and post-dialysis blood urea nitrogen (BUN) levels to calculate the urea reduction ratios



                                                1
(uRR).4 Baseline estimates were then used to identify opportunities   for improvement   in
ESRD care across the United States.


The project’s data was compared to standard medical levels of adequate hemodialysis
developed by the Renal Physicians Association and a National Institute of Health (NIH)
Consensus Development Conference Panel (URR >0.65 or KT/V > 1.2) .5’6’7Only 43
percent of the study’s patients met these new standards, with significant differences existing
by gender, race, age, and region. The percent of patients in particular Network areas who
received adequate hemodialysis ranged from 29 to 57 percent, accounting for differences by
race and gender.

The ESRD Core Indicators Workgroup produced a report in late 1994, along with an analysis
of the project’s results, and is currently conducting an evaluation of the impact of the Health
Care Quality Improvement Program on patient care and outcomes. Networks will also
prepare summary reports of their intervention and follow-up activities on an annual basis.

EM?D Brochure

The ESRD brochure “Know Your Number” was developed out of concern for the large
percent of hemodialysis patients not receiving adequate treatment. With the development      of
a consensus medical standard for adequate hemodialysis, patients now have a benchmark
against which to compare their own test results.

The brochure’s purpose is to educate the approximately 156,000 in-center hemodialysis
patients so they may better determine the adequacy of their treatment and become more
proactive in the treatment process. The brochure focuses on heightening patients’ awareness
of the following: 1) there is a recommended level of dialysis associated with a number; 2)
why achieving this level is important; and 3) how patients would know if the recommended
level of dialysis was achieved. The brochure also seeks to inform patients on what they can
do to track and improve their dialysis test results.

A total of 350,000 brochures were initially printed in English, with an additional 50,000
brochures printed in Spanish for a later distribution.    The brochures were sent directly to
approximately 2,500 dialysis facilities for dissemination to ESRD patients. Distribution of
the brochure to patients at the facility-level is intended to improve communication between
providers and patients, in addition to increasing patients’ understanding of their treatment and
progress.

SCOPE

Since the goal of the EXD “Know Your Number” brochure is to increase patient awareness
about the adequacy of their dialysis, this study examined whether patients received the
brochure and understood its content and also facilities’ experience in using the brochure. In
addition, we determined how brochures were disseminated and the extent of interaction
between patients and providers as a result of the brochure’s distribution.  We did not aim to


                                               2

measure any broad-based behavior changes by patients resulting from the brochure due to the
difficulty of making such causal inferences.

METHODOLOGY

Sample selection

Using the HCFA’s Medical Information System (PMMIS) database, we used simple random
sampling to obtain two separate samples of 800 hemodialysis patients each in late October
1995 and mid-February 1996, testing both early and later dissemination of the brochure.
The findings from this survey will be included in a separate OIG report (OEI-06-95-00321 ).

Using HCFA’s Online Survey Certification and Reporting System (OSCAR) and Medical
Information System (PMMIS) databases, we used simple random sampling to obtain a sample
of 150 dialysis facilities in operation prior to October 1995. We surveyed the 132 facilities
with hemodialysis patients in April 1996. Our response rate for this sample was 86 percent,
with 113 facilities responding to our survey. Four additional completed surveys came in
several months after the survey deadline and were not analyzed for this report.

An analysis of non-respondents versus respondents, based on key facility characteristics, such
as ownership type, location of facility, number of hemodialysis stations, and the number of
years with Medicaid/Medicare   certification, showed no differences between the two groups.

A profile of responding facilities and facility staff completing our survey is provided in
Appendix A. Confidence intervals for specific frequency estimates are provided in
Appendix B.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                                3

                                        FINDINGS


Facilities who received the brochure overwhelmingly reported the brochure includes useful
information, and most said it is somewhat, or very, easy for patients to understand.     These
facilities said the brochure allows staff to help patients become actively involved in their own
dialysis, encourages dialysis time compliance among patients, and its’ content is sometimes
being used, or will be used, in facilities’ educational outreach materials.

However, 22 percent of facilities reported ~t receiving the brochure. Some who got it,
didn’t fully disseminate it to patients. Furthermore, we found 21 percent of facilities do ~t
calculate patients’ URR or KT/V numbers on a monthly basis. Facilities calculating these
adequacy numbers on a monthly basis, were much more likely to also distribute the brochure
and have patients who participate more proactively in their dialysis. This finding clearly
highlights that there is an important interaction between facility practice and the effectiveness
of the brochure.

DISSEMINATION

 Seventy six percent of facilities repotied receiving the    brochure, allhough 22 percent said
 they did not. All but 13 percent of receiving facilities    distributed the brochure, half to
 every pah”ent and half to an average of 69 percent of      their palients. Brochures were
@equently (74 percent) personally handed to p~”ents,         often accompanied by an explan~”on
from a registered nurse (84 percent).

A large majority (76 percent) of facilities reported receiving the brochure, while 22 percent
said they did not receive it and another two percent did not remember receiving it. There
were significant differences in facilities receiving the brochure based on facility location and
type. Ninety-three percent of rural facilities reported receiving the brochure compared to
only 81 and 64 percent of suburban and urban facilities (see table 1).



                        Table 1: FACILITIES RECEIVING BROCHURE
                                     by location of facility

                              Urban area             Suburban      area       Rural area

  Yes                            64%                        81%                  93%
                                 (30)                       (25)                 (28)

 No/Didn’t                       36%                        19%
 Remember                        (17)                       (6)                  (7;




                                                4

Additionally, facilities attached to hospitals were more likely (88 vs. 72 percent) to have
received the brochure than free-standing facilities (see table 2). However, there were no
differences in the brochure’s distribution based on the size of the facility or the number of
patients treated.



                          Table 2: FACILITIES RECEIVING        BROCHURE
                                         by type of facility

                                     Free-standing                      Attached to hospital

  Yes                                     72%                                   88%
                                          (54)                                  (30)

  No/Didn’t                               28%                                   12%
  Remember                                (21)                                  (4)



The head nurse and/or dialysis facility administrator most commonly determined whether the
brochure would be disseminated to patients. Fifty-nine percent of head nurses and 25
percent of dialysis facility administrators determined whether the brochure would be
distributed.  Additionally, 17 percent of medical directors, along with nine percent of both
dietitians and social workers, determined the brochure’s dissemination.

 Most facilities hunded the brochure to patients and/or placed it somewhere accessible in their
facility.

Seventy-four percent of facilities said they personally handed the brochure to patients, and 13
percent gave it to family members or a signiilcant other. Although 47 percent of facilities
reported placing the brochure somewhere accessible in the facility, only seven facilities relied
exclusively on this method of dissemination.    Brochures were most commonly placed in the
patient waiting room or lobby area, and/or placed on the patient bulletin board. Twelve
facilities used several of the above methods of distributing the brochure, three facilities let
the staff decide how it would be distributed, and one facility translated it into Spariish first.

i%irteen percent of facilities did Et distribute the brochure for a variety of reasons.

Of the thirteen percent of facilities (11 facilities) not distributing the brochure, two facilities
didn’t do so because they were either not calculating URR numbers at the time or were
changing the measure of adequacy reported to patients. Another three facilities mentioned
planning to distribute the brochure in the future. One facility reported not receiving enough
copies of the brochure, one needed the Spanish version of the brochure, two facilities were
still evaluating the brochure, and two facilities reported having tb.eir own “report card” or
method of reporting URR or KT/V numbers to patients.




                                                     5

Hay of the facilities reported distributing the brochure to every patient, while the other half
said they distributed it to an average of 69 percent of patients.

Facilities were split evenly on whether they distributed the brochure to every patient or to
only a portion of patients. Facilities not distributing the brochure to every patient, reported
distributing it to an average of 69 percent of their patients. The modal distribution of the
brochure was 78 percent of patients with a median distribution of 75 percent.

In two separate patient surveys reported in a companion OIG report (OEI-06-95-O0320), only
one-third of patients reported receiving the brochure. The discrepancy between the number
of facilities receiving the brochure (76 percent) and the much lower number of patients
saying they received- the brochure could be explained, at least in part, by the fact that half of
the facilities surveyed did not distribute the brochure to every patient.

For-profit facilities were almost three times as likely (74 vs. 26 percent) to distribute the
brochure to every patient compared to non-profit or government-owned facilities (see table
3). There were significant differences in brochure distribution based on the type of facility
administration.    Hospital administered facilities were much less likely (18 vs. 82 percent) to
distribute the brochure to every patient, compared to non-hospital administered facilities. 8



       Table 3: FACILITIES      OWNERSHIP STATUS: PROFIT OR NON-PROFIT/GOVERNMENT
                                       by distribution of brochure

                                       Distributed to     Dktributed to         Brochure not
                                        every patient     some patients          distributed

  Facility ownership

  Non-profit/Government                     26%               48%                   73%
                                            (lo)              (14)                   (8)

  For-profit                                74%               52%                   27%
                                            (28)              (15)                   (3)

  Facilitv administration

  Hospital administered                     18%               38%                   45%
                                             (7)              (11)                   (5)

  Non-hospital   administered               82%               62%                   55%
                                            (31)              (18)                   (6)



Among facilities not distributing the brochure to every patient, the most commonly reported
reasons were: 1) their belief that many patients wouldn’t understand the brcchure’s content
(54 percent), and 2) they did not receive enough brochures to give one to every patient (37
percent). Time constraints prevented the distribution of the brochure to every patient
according to five facilities, while four facilities said they didn’t distribute it because they
used other education materials instead. Other facilities not distributing brochures to each



                                                    6

patient reported the brochures were placed in the waiting area, they had already discussed the
material with patients, or said disseminating the brochure was not a staff priority.

Eighty-four percent of facilities reported they personally expkzined the brochure to patients,
with registered nurses providing the majon”ty of these explanations.

Most facilities (84 percent) reported their staff personally explained the brochure to patients.

Eighty percent of facilities said registered nurses provided these explanations.    Thirty percent

of dietitians, 18 percent of licensed vocational nurses (LVNS), and 17 percent of social

workers in facilities also provided such explanations.    Fifteen percent of doctors and 12

percent of technicians also provided explanations of the brochure to patients. Although

several staff members might have provided these explanations, RNs had the greatest

responsibility.


Facilities reported patients were usually alert but didn’t always ask questions or didn’t appear

to understand staff explanations of the brochure. Almost all facilities (97 percent) said at

least half or more of their patients appeared alert during their explanations.  However, only

67 percent of facilities reported patients asked questions during these staff explanations, of

which, 34 percent said only half of patients did so, and 33 percent said only a few.


In our patient surveys (OEI-06-95-O0321), only 49 percent of patients from our first sample,

and 42 percent from our second sample, remembered receiving an explanation of the

brochure’s content, although 84 percent of facilities reported giving explanations of the

brochure to patients. This discrepancy suggests some patients may not have actively listened

to the explanation, or the explanation may have been cursory or low key, and thus

forgettable.


Seventy-three percent of facilities said a few patients didn’t appear to understand the

explanation, while another nine percent said most, or about half, of patients didn ‘t

understand.


The majority of patients, reportedly, were listening during staff explanations, with only 59

percent of facilities saying a few patients weren’t listening. Seven facilities reported a few or

more patients slept through the staff explanation.    Additionally, 87 percent of facilities

reported no patients objected to having the information explained to them, while only three

facilities said that about half or more of their patients objected to such an explanation.


Facilities with at least 50 percent of their patients interested in finding out about how

adequate their dialysis is were also significantly more likely to explain the brochure to

patients. Ninety-two percent of facilities with over half of their patients interested in their

adequacy information also explained the brochure, compared to 77 percent of facilities with

fewer than half of their patients interested in adequacy information.





                                                 7

BROCHURE’S         EFFECTIVENESS

Seventy-two percent of facilities rated the brochure’s effectiveness as a pti”ent educm”onal
tool as either excellent or good, and 66 percent said the brochure was somewhat, or very,
easy for their p~”ents to understand. Almost all facilities (98 percent) said pti”ents need to
know the informti”on in the brochure, and 82 percent considered a brochure to be an
approptie     method for communicating d to patients.

Facilities’ ratinm of brochure’s        effectiveness.


Twenty-one percent of facilities rated the brochure’s overall effectiveness in educating

patients as excellent, and another 51 percent rated it as good. Twenty-four percent of

facilities felt the brochure did a fair job of achieving this goal, while only two facilities rated

the effectiveness of the brochure in educating patients as poor or very poor.


Typical comments from facilities judging the brochure’s effectiveness as excellent or good

include the following:    1) “(It) was easy to understand with excellent and direct information;”

2)	 “Makes the patient and family aware of the need for adequate dialysis;” 3) “It was a good
introduction to this topic and assisted staff in presenting information;” and 4) “Quick self-
learning and backed up with concept we try to sell to patients. ”

A sampling of comments from facilities finding the brochure much less effective for
educating patients listed several concerns: 1) “Doesn’t address 24 week therapy, diabetes,
residual function...;” 2) “The patients who most need information are the same ones who
struggle to understand...;”  3) “Only some patients are interested;” 4) “Language is too
sophisticated for most of our patients; 5) “Mainly due to mismanaged distribution methods;”
and 6) “Patients receive so much written material already, they don’t pay attention... ”

Facilities rating the brochure as excellent for educating patients were much more likely to
report more of their patients were interested in adequate dialysis. For example, facilities
rating the brochure as excellent reported 75 percent of their patients were interested in
adequate dialysis. In contrast, facilities who did not give the brochure an excellent rating
reported only 52 percent of their patients were interested in adequate dialysis (see table 4).



       Table 4: PERCENT    OF PATIENTS REPORTED INTERESTED IN ADEQUATE                         DIALYSIS
                               by facilities rating the brochure as excellent

 Facility rated brochure as excellent         Average percent of patients interested   in adequate   dialysis

 Yes                                      I                               75%

 No                                                                       52%
                                          I

Additionally, facilities rating the brochure as excellent in educating patients reported almost
1.5 times more of their patients track their URR or KT/V numbers from month to month
(see table 5).



                                                          8

                    Table 5: PERCENT OF PATIENTS IN FACILITIES REPORTED
                   TRACKING THEIR URR OR KT/V NUMBER MONTH TO MONTH
                                  by facilities rating the brochure as excellent
                                          I
                                                                Average percent of patients
   Facility rated brochure as excellent                               tracking number

   Yes                                      I                            40%

II No                                       I                            27%



Facilities also were more likely to rate the brochure as excellent if their patients had been
undergoing dialysis for a longer period of time (see table 6).



                Table 6: AVERAGE          MONTHS PATIENTS ON DIALYSIS          PER FACILITY
                                            by facility rating of brochure

   Facility rated brochure as excellent                        Average months patients on dialysis

   Yes                                                                         55

   No                                                                          41




Facilities’ ratimm of brochure’s          understandability.

Sixty-six percent of facilities thought the brochure wa somewhat, or veq, easy for mos~ of
their patients to understand.

The majority (66 percent) of facilities reported the brochure was either somewhat (38
percent),  or very, easy (28 percent) for most patients to understand. Eighteen percent said it

was neither easy nor hard to understand and, 14 percent said it was somewhat hard to

understand. ~ facilities said the brochure was verv hard to understand and only one facility

reported not knowing how well patients understood the brochure’s contents.


Our patient surveys (OEI-06-95-O0320) showed an even higher number of patients (84

percent) thought the brochure was somewhat, or very, easy to understand. However, the

inability of many patients to accurately recall key brochure concepts tempers their high

ratings of ease of understanding the brochure somewhat.


Ten facilities reported most of their patients found the brochure’s content somewhat hard to

understand, citing several reasons for this difficulty in patient understanding. Six facilities

found the use of the terms URR and KT/V too confusing, and five facilities said patients

were unclear what number the brochure was talking about. Four facilities said the

brochure’s reading level was too high, and three facilities said the brochure’s content was too

advanced for their patients.





                                                          9

Facilities reporting the brochure as very easy to understand served patients with an average
of 15 more months experience on dialysis (see table 7). Such a correlation suggests that
patients undergoing dialysis for longer lengths of time may be more interested in or receptive
to the brochure’s content.


               Table 7: AVERAGE       MONTHS PATIENTS ON DIALYSIS          PER FACILITY
                                        by facility rating of brochure

  Brochure   rated as very easy to understand               Average months patients on dialysis

  Yes                                                                       56

  No                                            I                           41


Forty-six percent of facilities reported most or all of their patients wanted to know their own
 URR or KT/V number afier receiving the brochure, and 47 percent said hay or more of their
patients asked questions about the brochure’s content.

Forty-six percent of facilities reported most or all of their patients wanted to know their own
adequacy numbers after receiving the brochure. Forty-seven percent of facilities also
reported about half or more of their patients asked questions about the brochure’s content.
However, 33 and 40 percent of facilities reported onlv a few patients wanted to know their
own UR.R or KT/V numbers and/or asked questions after receiving the brochure, with six
and three facilities, respectively, reporting none of their patients did either of these things.

Eighteen percent of facilities reported about half or more of their patients requested more
information about their treatment, while 55 percent of facilities said only a few patients did
this after receiving the brochure. Additionally, 22 percent of facilities said no patients made
such an inquiry.

However, far fewer facilities reported any negative reaction to the brochure. Only 11
percent of facilities reported about half or more of their patients threw the brochure away
without reading it, and 42 percent said only a few of their patients did this. Only ten percent
of facilities reported about half or more patients were nt interested in the brochure’s
information.    Fifty-eight percent of facilities reported only a few patients were @ interested
in the brochure’s information, and 13 percent of facilities said that none of their patients
were ~t interested in the brochure’s content.

Facilities’ ratimzs of the inmortance of brochure’s       content.

Almost all facilities (98 percent) said patients need to know the information in the brochure,

Clearly, there is almost unanimous facility support of the adequacy information discussed in
the brochure. Further, the two facilities disagreeing with the brochure’s content said this
was only because they had not seen a copy of the brochure or were already including this
information on each patient’s monthly lab report.



                                                    10

Almost all facilities had something positive to say about why the brochure’s content provided
critical information.  The majority of these explanations stressed the importance of teaching
patients to be actively involved in their dialysis, and noted the brochure could reinforce staff
educational efforts and help patients better understand why they might have to increase their
treatment time on the dialysis machines.

Specifically, the following comments represent the enthusiasm facility staff expressed about
this information:   1) “More educated patients (are) more proactive and more responsible in
their care...;” 2) “Encourage(s) compliance with attendance and patients to stay on prescribed
times...;” 3) “Encourages patients to be more informed and take more responsibility, ” 4) “So
patients will/can appreciate need for full time on dialysis;” 5) “The brochure helps reinforce
information given by us;” 6) “The more (educational) information, the better;” and 7) “The
more patients know about their illness, the better control they can have. ”

Facilities’ ratinm of using a brochure as educational tool.

Eighty-two percent offacilities reported a brochure is the method they would have used to
communicate this information to patients, while 17 percent said they did Wt support the
brochure as the method they would have used.

Facility staff supporting the brochure as the method they would have used to inform patients
said this because the brochure is compact, to the point, easy to read and distribute, and gives
patients and families a chance to review the information at a later time.

Others said the brochure was one of several methods they would have used, especially for
their literate English-speaking population. A few staff also said they would supplement the
brochure with a staff explanation of the information.  Many staff members expressti   the
importance of visual aids and charts, such as the one in the brochure.

The following comments are typical of facility staff views on the usefidness of the brochure
as an educational tool: 1) “They (patients) needed to see printed educational material to
believe it’s true;” 2) “Quick, self-learning and backed up concept trying to sell to patients;”
3)	 “Easy to reach all patients and we use them in our new patient orientation packets;” 4)
“Was easy to understand - colors were good in attracting patient attention;” 5) “Best way to
get information to patients;” 6) Important they look at and refer back to;” and 7) “Good
teaching tool if individually given, otherwise not sure... ”

Facility staff less supportive of using a brochure said they would have used a videotape
instead, especially for less literate patients. Others would have used a computer-generated
table of this information, or relied on individual verbal, face-to-face teaching, instead.




                                                11

Facilities’ use of the brochure in educational outreach materials.

i%irty percent of facilities reported they are already using the brochure or brochure’s content
in their educational outreach materials; others have plans to do so, and gave some plausible
explanations why they have not.

Almost one-third of facilities used the brochure in their educational outreach materials,
mostly by including the material in their patient newsletter or using it in an educational in-
service training, or to educate new patients. Other facilities used the brochure in teaching
families, posting it on the patient bulletin board, and in reviewing the material with patients
when going over monthly lab report cards.

Although 70 percent of facilities did not report including the brochure’s content in their
educational material, 31 of 55 facilities specifically explained why they had not included the
brochure or it’s content in their outreach efforts.

Specifically, twelve facilities indicated they have no newsletter or educational outreach
materials. Seven facilities were planning to include the brochure in their future outreach but
four facilities said they had no need to do so. They feel handing the brochure out to all
patients was enough, or that they continuously explain this information monthly. Four
facilities said they haven’t had an opportunity due to time constraints.  One facility displayed
the brochure in their lobby area. One facility didn’t include the brochure because the
language was too sophisticated for most of their patients.

Facilities’ innovative methods in educating   Datients.


Facilities use a variety of innov~’ve methods to educate ESRD pti.ents about their
treatment. Such innovative methods include using videotapes during patients’ dtiysis
tre@nents, bulletin boards, posters, or wall chatis; along with educational cbsses, in-
service trm”ning, newsletters, and monthly repoti cards.

Videotape was the most frequently mentioned (ten facilities) method used to educate patients

about their treatment. Videos can be used during patients’ treatments and assure all patients

better understand the material, even those with reading difficulties.  One facility was using

videos produced by local physicians and featuring their own patients.


Four facilities reported an innovative use of bulletin boards, wall charts, and patient incentive

programs to improve dialysis treatment, Other facilities conduct patient in-service training,

educational classes, and/or use a theme of the month to focus staff and patients on a

particular topic. Facilities also employ monthly newsletters, report cards, and one-on-one

teaching to educate patients about their treatment.


Four facilities conduct educational meetings before new patients first begin their treatment to

help them better understand their future dialysis treatment. Two facilities use current

patients to teach their new patients.





                                                 12

Facilities’ recommendations   for future educational   initiatives.

 Facilities recommended thti future brochures for ESRD palients should be simplified, use
 lkyman ’s terms, and include more pictures, diugrams, and bright colors. Additionally,
facilities recommended providing a larger supply of brochures so facilities can distribute
them to every pti”ent.

The majority of recommendations made by facilities (13 facilities) for future brochures for
ESRD patients involved the presentation of the brochure’s content. Facilities recommended
brochures not be too detailed, but instead include; catchy titles, more visual explanations,
more graphs, and larger type for visually impaired patients. Additionally, facilities
recommended creating a separate brochure for patients with lower reading levels. One
facility wanted the “Know Your Number” brochure to leave blanks on the recommended
level of URR or KT/V numbers so facilities could assign higher levels for their patients,
while one facility wanted to see the brochure split into two brochures, one discussing URR
and one discussing KT/V.

Seven facilities recommended printing the brochure in additional languages, with the majority
requesting Spanish brochures.  These facilities apparently were not aware HCFA has already
produced a Spanish version of the “Know Your Number” brochure which it will distribute
shortly to facilities.

Six facilities recommended improvements in the distribution of future brochures, mainly by
assuring they receive a larger supply of brochures; one for each patient, plus extras to
display in certain areas of the facility. One facility reported confusion about how the
brochures were distributed to patients. This facility never received the brochure and was told
by their network that the brochures were mailed individually to patients. One facility
recommended all staff members be informed prior to distributing the brochure to patients.

Six facilities wanted to see additional brochures on various topics that help patients improve
their compliance and overall treatment. Recommended topics included: fluid compliance,
phosphate binders, and calcium intake.

The creation of educational progmm videos for both patients and staff was recommended          by
two facilities, while one facility wanted to see follow-up material to the “Know Your
Number” brochure, including a more in-depth explanation and a larger graph.

Lastly, two facilities suggested continuing communication from dialysis facilities to assure
new patients receive introductory information about dialysis and the role of networks.




                                                13

DIALYSIS      ADEQUACY

Facihlies smii ai least 50 percent of their pah”ents are interested in the adequacy of their
diulysis, with 29 percent tracking their numbers month-to-month.       However, only 77
percent of facilities calculate pm-ents’ numbers d least monthly, with 21 percent doing this
only quatierly.    Further, only 53 percent of facilities ~“ve p~”ents their numbers all the
time; many do so far less, 16 percent do this less than half the time.

An average of 57 percent of patients from all facilities were reported to be interested in
finding out how adequate their dialysis is. The modal percent of interested patients was 50
percent, with a median of 60 percent of patients interested in knowing the adequacy of their
dialysis.

The majority of facilities (77 percent) calculate patients’ URR or KT/V numbers at least
monthly, but 21 percent of facilities calculate such numbers only on a quarterly basis, and 3
facilities calculate adequacy numbers only as ordered by the doctor or other staff members.

 Free-standing facilities were more likely to report more of their patients are interested in
jinding out abou~ the adequucy of their dialysis and were also more likely to calculate
patients’ adequacy information on a monthly basis, compared to hospital-based facilities.

Free-standing facilities were more likely (61 vs. 42 percent) to report half or more of their

patients were interested in finding out how adequate their dialysis is, compared to hospital-

based facilities. Free-standing facilities were also three times more likely (76 vs. 24 percent)

to calculate patients’ adequacy numbers at least monthly compared to hospital-based

facilities.


Facilities who calcukzte their patients’ numbers monthly or more oj?en were much more likely
to have distributed ~he brochure to every patient.

Of facilities reporting they distributed the brochure to every patient, 87 percent said they also
calculated patients’ URR or KT/V numbers at least on a monthly basis. In contrast, of
facilities distributing the brochure to just some of their patients or to none at all only 62 and
64 percent, respectively, calculated patients’ URR or KT/V numbers at least monthly.
(see table 8)


          Table 8: FREQUENCY    OF CALCULATING         PATIENTS’     URR OR KT/V NUMBER
                                    by distribution of brochure

                                    Dktributed to          Distributed to        Brochure not
  Number calculated                  every patient         some patients          distributed

  Monthly or more                        87%                       62%               64%
                                         (33)                      (18)               (7)

  Less than monthly                      13%                       38%               36%
                                          (5)                      (11)               (4)




                                                 14

Facilities with patients averaging 14 months longer on dialysis (48 months vs. 34 months)
were significantly more likely to calculate and share patient URR or KT/V numbers on a
monthly basis (see table 9).



             Table 9: AVERAGE MONTHS PATIENTS ON DIALYSIS PER FACILITY
                      by facilities giving monthly URR or KT/V numbers to patients
                                     I
  Number calculated   monthly        I                 Total months patients on   dialwis
  Yes                                I                               48

  No                                 I                               34



Although 53 percent of facilities said they give patients their URR or KT/V numbers all the
time, muny facilin’es reported doing so far less, with 16 percent giving this information less
than half of the time.

The majority (53 percent) of facilities report giving patients     their URR or KT/V numbers 100
percent of the time, while 27 percent give this information       only 75 percent of the time. Nine
percent of facilities say they give this adequacy information      to patients only half of the time,
and seven percent of facilities only do so 25 percent of the      time.

Four percent of facilities never give patients information about their URR or KT/V numbers.
Two facilities gave the following reasons for not sharing this information: 1) “Most
outpatients are very sick. We are a hospital-based unit, ” and 2) “Most patients are not
interested or didn ‘t understand URR or KT/V at the time the brochure came out. ”

In our patient surveys (OEI-06-95-00320),    we found only 45 percent in our first sample and
35 percent in our second sample identified the URR test as one used in their dialysis facility
to measure the adequacy of their dialysis, with even fewer identifying the KT/V test (37 and
36 percent). Additionally, about one-quarter of all patients sampled said they did not know
which test(s) were used by their dialysis facility to measure adequacy.

Free-standing facilities were twice as likely (64 vs. 32 percent) to give patients their URR or
KT/V numbers 100 percent of the time, compared to hospital-based facilities.

Of facilities distributing the brochure to every patient, 73 percent also say they give patients
their URR or KT/V number 100 percent of the time, compared to 43 and 36 percent of
facilities distributing it to a portion of their patients or not distributing the brochure at all.
(see table 10)




                                                 15

                   Table 10: FREQUENCY PATIENTS GIVEN URR OR KT/V NUMBER
                                      by distribution of brochure

                                     Distributed to             Dktributed to           Brochure not
 Frequency    number given            every patient             some patients            distributed

  100% of time                             73%                       43%                     36%
                                           (27)                      (12)                     (4)

 50-75 % of time                           19%                       46%                     27%
                                            (7)                      (13)                     (3)


                                                            I
 25% of time to never given                 8%                       11%                     36%
                                            (3)                      (3)                      (4)




Facilities reporting higher percentages of patients interested in adequate dialysis also were

significantly more likely to give patients their URR or KT/V number 100 percent of the

time, than facilities reporting patients with lower interest in adequate dialysis. Facilities

giving adequacy information 100 percent of the time were over 1.5 times more likely (64 vs.

41 percent) to also report patients were interested in adequate dialysis (see table 11).

Although we don’t know whether patients are more interested in adequate dialysis because

they are more frequently given this information or visa-versa, an observable correlation

exists between these variables, suggesting the importance of both of these important

elements.




                 Table 11: PERCENT OF PATIENTS IN FACILITIES REPORTED
                               INTERESTED IN ADEQUATE DIALYSIS
                          by frequency patients are given URR or KT/V number
                                         I
 Frequency of patients given                                Average percent of patients
 URR or KT/V #                                             interested in adequate dialysis

  100 % of time	                                                            64%
                                                                            (55)

 50-75 % of time	                                                           54%
                                                                            (39)

 25% of time to                                                             41%
 never given                                                                (11)




                                                      16

Significant differences also existed in the frequency with which some facilities gave patients
their URR or KT/V numbers based on the percentage of Hispanic patients and patients of
other backgrounds, such as Indian, Lebanese, and/or Hawaiian/Samoan (see table 12).
Facilities with a higher proportion of these patients were much more likely to not give their
patients adequacy information on a regular basis. Additionally, near significant differences
existed based on the percentage of black patients per facilities. Facilities distributing
adequacy information only 25-50 percent of time also had a majority of black patients,
instead of a majority of wbite patients.



                  Table 12: FREQUENCY PATIENTS GIVEN URR OR KT/V NUMBER
                                   by distribution of patients by race



                         I                           Dktribution of patients
                                                       in facilities by race


  Frequency   # given        ‘%White     % Black         % Hispanic            % Asian   % Other

  100% of time                  47%         44%                5%                  2%        2%

 75% of time                    47%         33%                14%                 5%        1%

 50% of time                    38%         44%                 1%                 3%       14%

 25% of time                    30%         56%                5%                  7%        2%

 Never                          54%         17%               26%                  o%        3%



Facilities reported an average of 29 percent of their patients track their URR or KT/V
numbers j?om month to month; patients given ~his information all the time are signljicantly
more likely to track their numbers.

Vast differences existed in the percentage of patients tracking URR or KT/V information
from month to month, as reported by facilities. Just under one-third of facilities reported ten
percent or fewer of their patients track this information, with the median number of patients
who track their number being 25 percent. Nevertheless, the largest number of facilities (19
percent) reported 50 percent of their patients track adequacy information.

Facilities reporting higher percentages of patients tracking URR or KT/V numbers on a
monthly basis also were signitlcantly more likely to also be facilities who report they give
patients this information all the time (see table 13). Facilities giving this information 100
percent of the time averaged 35 percent of their patients tracking adequacy information,
compared to only 25 and 14 percent of facilities giving this information 50-75 percent of the
time or less.

This correlation reinforces the importance of facilities giving this information to their patients
every time it is calculated, so that patients can actively participate in their dialysis care.



                                                   17

                         Table 13: Percent of patients in facilities reported
                       tracking URR or KT/V number from month to month
                        by frequency patients are given URR or KT/V number

 Frequency of patients given URR                             Mean of patients
 or KTIV #                                                   tracking number

  100% of time                                                     35%
                                                                   (49)

 50-75 % of time                                                   25%
                                                                   (35)

 25% of time to                                                     14%
 never given                                                        ( 7)



Facilities regulurly share patients’ phosphorus, potassium, albumin, and B. U.N. test results
with them.

In addition to facilities sharing information about patients’ URR or KT/V test results, 98 and
97 percent of facilities reported they regularly share phosphorus and potassium test results
with patients, while 95 and 93 percent share patients’ albumin and B. U. N results. Thirty-
five percent of facilities also share patients’ HCT/Hematocrit test results, while 29 percent
give patients their calcium test results regularly. The protein catabolic rate is shared with
patients by 25 percent of facilities and iron test results are shared by 15 percent of facilities.
Additional test results regularly shared with patients include: creatinine, glucose,
cholesterol, ferritin, and Hgb/Hemoglobin.      The only facility reporting they do not share test
results with patients regularly also said only 10 percent of their patients were interested in
adequate dialysis. This same facility said it calculates URR and/or KT/V numbers on a
monthly basic but never shares these test results with patients.

Additionally, the results of our surveys (OEI-06-95-O0320) showed patients most frequently
identified the potassium test (60 and 61 percent of patients) and the phosphorus test (55 and
58 percent) as being used by their dialysis facility to measure adequacy, rather than the URR
or KT/V test.




                                                  18

                        RECOMMENDATIONS

Overall, we found the brochure has the potential to serve as an effective part of a broader

strategy of improving patients’ understanding of adequate dialysis and enlisting their support

in monitoring the adequacy of their dialysis. The “Know Your Number” brochure was given

a positive assessment by facilities receiving it. However, the brochure was not received by

all facilities, nor was it fully distributed or explained to all patients by all receiving facilities.


Facilities receiving the brochure were receptive to the brochure’s content, reporting it was

essential information for patients to understand. Nevertheless, facilities varied greatly in how

they embraced the brochure’s concepts in practice, with some fully engaging patients in

understanding their own adequacy information by calculating their URR or KT/V number on

a monthly basis and regularly giving these numbers to patients, while others provide key

adequacy information to patients far less often. Yet, when facilities do provide this adequacy

information, it appears to increase patient interest and involvement in monitoring the

adequacy of their dialysis. It seems clear that the brochure’s effectiveness in educating

patients and involving them in monitoring dialysis adequacy is heavily dependent upon

facility practices and the quality of staff-patient relationships.


Based on our findings, we recommend        that HCFA take the following actions to improve

kidney dialysis:


DISSEMINATION.         Assure all facilities receive an ample supply of brochures and should

encourage them to distribute a brochure to every patient. HCFA might also consider

providing guidelines to facilities on effective dissemination approaches.


BROCHURE CONTENT & FORMAT.                   Simply the language and concepts as much as

possible in any subsequent or revised patient brochures.   Consideration might be given to

developing alternate versions of the brochure for different reading levels and to add greater

use of color and graphics to gain interest and promote patient understanding.


CONTINUING PATIENT EDUCATION.                  Encourage continuing efforts by facilities to

educate patients and to reinforce the importance of patient understanding and monitoring of

the adequacy of their dialysis. A training video to introduce and/or reinforce the brochure

concepts might also prove effective, based on the suggestions and experiences of some

facilities.


USE OF ADEQUACY MEASURES. Encourage facilities to calculate dialysis adequacy

measures on a monthly basis and share these numbers with patients on a regular basis in

order for the brochure to achieve its intended impact on patients and facilities.





                                                  19

                          AGENCY                 COMMENTS

The Health Care Financiag Administration (HCFA) concurred with all the report’s
recommendations.   We appreciate their responsiveness to our proposals. However,         we have
a new concern that has arisen since we issued our draft report.

We originally recommended that HCFA encourage facilities to calculate dialysis adequacy
monthly and share these numbers with patients on a regular basis. HCFA informed us that
they had no requirement for facilities to measure the adequacy of dialysis at prescribed
intervals but that their revised ESRD Conditions for Coverage will require facilities to
calculate the adequacy of dialysis quarterly. This is in marked constrast to the upcoming
National Kidney Foundation’s Dialysis Outcome Quality Initiative guidelines which
recommend a standard practice guideline of a monthly URR or KT/V calculation, not
quarterly calculations.   We are concerned that facilities will interpret HCFA’s Conditions for
Coverage as the acceptable standard and conduct adequacy testing only quarterly.

In our view,      this could pose a severe health risk for ESRD patients whose dialysis could go
three months       before needed corrections could be made to their treatment. We are convinced
that facilities    should be required to calculate adequacy numbers monthly and we urge HCFA
to reconsider      or amend the Conditions for Coverage accordingly.

Discussion    of Technical Comments

HCFA suggested        we assess whether some of the comprehension issues might be attributed to
a lack of cultural    sensitivity in the brochure. We did analyses looking at both a patient’s
race and primary      language. However, we found no statistically significant differences on key
questions related    to comprehension based on these two variables.

Additionally, HCFA called attention to the Spanish version of the brochure. We were happy
to mention that 50,000 brochures would be printed for later distribution in the background
section of both reports. Of course this study examined only the English version; at the time
of our facility survey the Spanish version had not been distributed.

See Appendix C for a full text of HCFA’S comments.




                                                 20

                               EN DNOTES




1.   “lltle 42 CFR 4(H. 2 lW, Conditions    tor Coverage ot” Suppliers ot” ESRD Services,
     October 1993; pg. 127.

2.   Hemodialysis therapy cleans and filters a patient’s blood with a dialyzer. This
     procedure can be done at home or in-center by nurses or trained technicians.
     Hemodialysis is usually performed about three times a week, with treatments
     lasting 2 to 4 hours each. Through this treatment and a proper diet, ESRD patients
     can greatly reduce the amount of wastes building up in their blood.

3.   Peritoneal Dialysis replaces the work of the kidneys by removing extra water,
     wastes, and chemicals from the body. A cleansing solution, called dialysate, helps
     facilitate a patient’s peritoneal membrane of the abdomen to filter their blood,
     requiring a catheter to be permanent y placed into their abdomen. Wastes are
     filtered from a patient’s body once the dialysate is drained. There are three types
     of peritoneal dialysis, with Continuous Ambulatory Peritoneal Dialysis (CAPD)
     being the most common.

4.   The Urea Reduction Ratio (uRR) informs patients how well hemodialysis is
     working by telling them the percentage of urea (waste products) removed from
     their body during their treatment.

5.   Some dialysis facilities calculate a KT/V ratio instead of URR. This urea kinetic
     model or index is defined as the dialyzer urea clearance (K) multiplied by the
     patients’ treatment time (T) divided by the volume of urea distribution (V).

6.   Consensus Development Conference Panel. Morbidity and mortality of renal
     dialysis: An NIH consensus conference statement. Ann Intern Meal, 1994; 121:
     62-70.

7.   Renal Physicians Association.     Clinical practice guideline on adequacy of
     hemodialysis:   Clinical practice guideline, number 1. December, 1993

8.   Strong linkages exist between facilities’ ownership type and the way they are
     administered.     Over three-fourths (79 percent) of the non-profit/government-owned
     facilities are also administered by a hospital, while only one for-profit facility was
     administered by a hospital.




                                           21

                                  APPENDIX                    A

RESPONDENT         FACILITY      PROFILE

Kev facilitv characteristics

Sixty-seven percent of our facilities were free-standing, while 30 percent were attached to a

hospital, and three percent were part of a clinic or medical complex. Sixty-five percent of

facilities were non-hospital administered and 35 percent were hospital administered.    The

majority (56 percent) of responding facilities were for-profit, 39 percent were not-for-profit,

and five percent were government facilities.


Forty-three percent of dialysis facilities were located in urban areas, 29 percent in suburban

areas, and 28 percent in rural areas. Our responding dialysis facilities had an average of 16

dialysis stations, ranging between two and eighty. The median number of dialysis stations

was 13.


The average length of participation in Medicare/Medicaid     for responding facilities was 11

years, with four facilities participating for only one year and eight facilities participating for

20 years. The mode for our facilities was 19 years (27 facilities) and the median was 11

years.


Patient education resDonsibifities


Sixty-four percent of responding facilities had a primary person in charge of patient

education. Eighty-nine percent of facilities listed registered nurses as the position primarily

responsible for patient education, while 66 and 59 percent of facilities, respectively, listed

the dietitian and/or social worker as having this role. Doctors provided patient education in

43 percent of facilities, dialysis facility administrators in 21 percent, technicians in 34

percent, and LVNS in 26 percent of facilities. Other staff members playing a primary role in

educating patients include the education or inservice coordinator and the director of nursing.

Three facilities specifically mentioned that everyone in the facility or a specific staff team is

in charge of patient education.


FACILITY      PATIENT      DEMOGRAPHICS

Average age of patients

The average estimated age of ESRD patients from responding facilities was 58 years old,
with a range of patients between the ages of nine and 75. The mode and the median age
estimated by our facilities was 60 years old, with 24 percent of facilities reporting 60 as their
average patient age.




                                               A-1

Months patients on dialvsis

Facilities reported their patients spent an average of 45 months on dialysis, with one facility
ranging from patients only spending an average of one month on dialysis compared to
126 months on dialysis in another facility. The mode number of months patients spent on
dialysis was 24 months, with a median of 37 months.

Patients’ disability level

Facilities estimated that an average of 22 percent of their patients have a disability that limits
their ability to read or understand information.    Two facilities reported none of their patients
had limiting disabilities, while 59 facilities said less than 24 percent of their patients have a
disability. Five facilities reported 75 percent or more of their patients had disabilities that
limit their ability to read or understand information.     However, 21 facilities reported between
25-49 percent of their patients had reading or comprehension disabilities and another 15
facilities said 50 percent or more of their patients had these disabilities.

Educational     level

Seventy-eight percent of facilities reported information about their patients educational level.
Facilities varied greatly in the educational level of their patients (see table 1). The highest
percent of patients (43 percent) had high school diplomas. The average percent of patients
with less than a high school education was 42 percent. Far fewer patients had some college
(9 percent) or college/professional  degrees (5 percent).



              Table 1: PATIENT       EDUCATIONAL     LEVELS IN RESPONDING        FACILITIES

                                      Average % of
 Patients’ educational     level        patients        Minimum    %   Maximum     %      Median ‘%

 Less than high   school                  42%                o%           100%                24%
                                                             (3)           (1)

 High school diploma                      43%                o%           100%                40%
                                                             (3)           (2)                 (6)

 Some college                             9%                              60%                  5%
                                                            (;:            (1)                (12)

 College or professional    degree        5%                 o%           40%                 4%
                                                            (21)           (1)                (2)




                                                     A-2

Racial Composition      of Patients

One hundred and five facilities reported the racial composition of their patients. White
patients represented the largest racial group (45 percent). Black patients represented 40
percent of patients in responding facilities (see table 2).



             Table 2: PATIENT     RACIAL COMPOSITION           IN RESPONDING     FACILITIES

                                      Average % of
  Patients’ racial composition           patients      Minimum     %   Maximum     %      Median %

  Wl_ite                                  45%                o%           100%                40%
                                                            (lo)           (4)                (11)

  Black                                   40%                o%           100%                40%
                                                            (11)           (2)                 (6)

 Hispanic                                 7%                o%            100%                o%
                                                            (57)           (1)                (57)

 Asian                                    3%                o%             57%                o%
                                                            (72)           (1)                (72)

 Other                                    3%                o%             69%                o%
                                                            (83)           (1)                (83)




FACILITY       STAFF RESPONDENT                 PROFILE

Sixty-seven percent of our facility surveys were completed by just a single respondent, while
two staff members completed 16 percent of our surveys, and three surveys were completed
by a team of three. Our surveys were most frequently completed by registered nurses (47
percent), while facility administrators completed 20 percent. Dietitians completed 15 percent
of the surveys, with social workers and director of nursing or nurse managers completing 13
percent. Clinical coordinators completed six percent of our surveys.

Of the 25 facilities completing the survey in teams of two or three staff members, the most
common combination of staff was registered nurses and the director of nursing, or the
facility administrator and registered nurses.




                                                     A-3

                                             APPENDIX                                B

ESTIMATES          AND CONFIDENCE INTERVALS

The chart below summarizes the estimated proportions and the 95 confidence intervals for
key statistics presented in this report based on this simple random sample.


     Table 1: POINT ESTIMATES                  AND CONFIDENCE                INTERVALS      FOR KEY QUESTIONS.

                                                                                               95% CONFIDENCE
 QUESTION                                            POINT ESTIMATE                                INTERVAL

 Proportion of facilities receiving        the brochure.

 Overall                                                         76%                             68.1%   - 83.9%
 Urban                                                           64%                             50.3%   - 77.7%
 Suburban                                                        81%                             67.2%   - 94.8%
 Rural                                                           93%                             83.9%    - 100%

 Proportion   of facilities handing brochure        to patients.

                                                                 74%                             64.7% - 83.3%

 Proportion   of facilities distributing     brochure    to every patient.

                                                                50%                              38.5% -61.5%

 For-profit   facility ownership   by distribution       of brochure.

                                                                74%                              60.1% - 87.9%

 Hospital administered     facility by distribution        of brochure.

                                                                 18%                              5.8% - 30.2%

 Proportion   of facilities providing      an explanation     of brochure    to patients.

                                                                84%                              75.6% - 92.4%

 Proportion   of patients in facilities appearing        alert during the staff explanation.

                                                                59%                              46.3% -71.7%

 Proportion   of facilities rating brochure      as excellent or good.

                                                                72%                              61.9% - 82.1%

 Proportion   of facilities rating the brochure         as somewhat or very easy for patients to understand.

                                                                66%                              55.0% - 77.0%




                                                                 B-1

                                                 Table 1: CONT.

                                                                                        95% CONFIDENCE
QUESTION                                       POINT ESTIM.4TE                              INTERVAL

Average percent of patients interested in finding out about adequate dialysis.

                                                        57%                               51.4% - 62.6%

Proportion of facilities calculating patients’ URR or KT/V number(s) at least monthly.

                                                        77%                               59.9% - 84.8%

Proportion of facilities calculating URR or KT/V number(s) monthly by type of distribution of the	
brochure.	

Type of distribution:	
All patients                                            87%                               76.3% - 97.7%	
Some patients                                           62%                               44.3% - 79.7%	
No patients                                             64%                               35.6% - 92.4%	

Proportion of facilities giving adequacy information to patients 100 percent of the time.


                                                        53%                               43.4% - 62.0%

Proportion   of patients in facilities tracking their adequacy numbers monthly.

                                                        29%                               24.4% - 34.4%

Proportion   of facilities giving patients their potassium    test results regularly.

                                                        97%                               93.8% - 100%




                                                        B-2

    TESTS FOR SIGNIFICANCE

    Differences between the way facilities responded to the survey; whether             they thought the
    brochure was excellent or not, whether they thought it was very easy to             understand or not,
    and whether they calculated patients’ URR or KT/V numbers at least on                a monthly basis or
    not, were tested for significance for several questions. The table below            shows the difference
    between groups and the resulting value when a t-test was performed.



                          Table 2: TESTS FOR SIGNIFICANCE        FOR KEY QUESTIONS.
                                           I                                                    I
                                                    RATED BROCHURE   AS EXCELLENT
     QUESTION
                                                        YEs                 NO                      T VALUE
                                                                                                r
     Average % of patients in facilities
     interested in adequate dialysis                   75.1%               52.3%                     2.89-

     Average % of patients in facilties
     tracking their URR or KT/V                       40.1%                27.1%                      1.42
     numbers monthly

     Average months patients on
     dialysis per facility                           55 months           41 months                   2.05=

                                                    RATED BROCHURE AS VERY EASY
     QUESTION                                              TO UNDERSTAND                            T VALUE

                                                       YEs                  NO

     Average months patients on
     dialysis per facility                          55 months            41 months                   1.90-

                                                     URR OR KT/V # CALCULATED      AT
     QUESTION                                              LEAST MONTHLY                            T VALUE

                                                       YEs                  NO

     Average months patients on
     dialysis per facility                          48 months            34 months                   3.13-

‘     Indicates significance   at the 90% confidence level.
-     Indicates significance   at the 95% confidence level.
-     Indicates significance   at the 99% confidence level.




                                                          B-3

 APPENDIX          C



TEXT OF AGENCY COMMENTS




         c-1
           .. ..   -et,.
                       ,4
     ..”




             d .p---
 .                                                                                               Health   Care Finaw!na    Administra$i”n
.                           DEPARTiMENT     OF HEALTH & HUMAN     SERVICES
:
�

5-
     -“*,,,,mTd                                                                                  The Admln!strator
                                                                                                 Washlfigtfw.   O C.      Poml




                              DATE:

                              To


                              FROM
                                            Administrator

                              SUEU-ECT:
                                     Ofiw         of hpccux @ncd (OIG) ~         Rqort%: “~OW     Your Nutnhr”
                                            Brochure - Pempcctiws of Dia.I@s Paricnts (OEI-06-9S40320)     and
                                            “IGmw Your Numb&     Brochure - E~cncu      of Dinlysis Faciiiri~
                                            (oEL06-95-tM321)

                              We reviewed the almw-r&rcnced      reports which examine the cfl%tj~m~ of the Hea?th
                              Care Fmcing     Administration’s End Sragv H      D&ax wqzax-n
                                                                                              ..
                              Our detiki cwnmenti on& report rt#uuneadations arc attached fur yOur
                              cousid-cration. Thank you for tix oppxtuni~ to review andmmmentm thee rupm.

                              Anachmcnt
           Commenfi   of the Health cue FiIIanchz Adrninistiation U-ICFA) on

                    Offlcc of Inspector Gened (OIG) Draft Reports:

                    “how Yow Number” Brochure - Perspectives of

        Dialysis Patients, (OEI-06-95-00320) and “Know Your Number”’ Brochure       ­

                   ~xueriences of Dialysis Facilities. (OEI-06-95-0032 1]





“fiow   YOW Number” Brochure - Perspectives      of Dialvsis Patients. (OEI-06-95-0032U,)

OIG Recommendation      1

HCFA should ensure fiture patient brochures are received by all Medicare dialysis
patients.

HCFA Resuonse

We concur. Direct mailing of brochures to patients was considered for our initial
brochure distribution. However, the American Association of Kidney Patients
recommended that the brochure be distributed through facilities where questions can be
asked and explanations provided. Impossible, future distributions will be a combination
of direct mailing to patients and bulk mailing to facilities.

OIG Recommendation      2

HCFA should build on the patienth.ff    relationship in order to improve patient
understanding of urea reduction ratios md tie ufea kinetic modeI and the importanc~ of
achieving adequate dialysis.

~CFA Response

We concur. The patientistaff relahonship is critical to t-he improvement of a patient’s
understanding of end-stage rend disease (ES~).       Most patients rely on their c~e givers
for necessary information and encouragement in order to be active participants in the
health care decisions that involve them. Facility guidelines that provide the staff with
additional background materials and suggeshons on successful ways to use the brochure
in patient education would support paticntistfiff dialogue as well as patient empow-erment.
However, it will not guarantee that the brochure will be distributed or that dialogue tvill
occur.
Page 2

<’
     Know Your Number” Brochure - Exucriences
                                     ..         of Dialvsis Facilities, (OEI-06-95-0032   1.)

OIG Recommendation       1 (Dissemination)

HCFA should ensure that all facilities receive an ample supply of brochures and
encourage them to distribute a brochure to every patient. HCFA might also consider
providing guidelines to facdities on effective dissemination approaches.

HCFA Responsq


We concur, The initial distribution was intended to provide all ESRD dialysis facilities

with enough brochures for 100-percent patient distribution plus extra brochures for

anticipated new patients. The mailing labels and distribution amounts were provided long

before the brochures were actually mailed. Consequently, some new facilities were not

on the list, To the extent possible, future mailings will be done from the most ~urrent

roster of facilities. Additional brochures will be sent to the Networks with a request that

they send an ample supply to all facilities added to their Network rolls afier the mailing

list was created,


HCFA worked closely with the renal community (Renal Physicians’ Association,

American Association of Kidney Patients, National Kidney Fotmdatio~ American

Nephrology Nurses Association National Renal Administrators’ Association, ESi7 ~

Network Forum and National Association of Nephrology Technicians) in the

development and distribution of the brochure, as well m alerting the renal communi~- to

the brochure distribution. The national associations were most helpfid in promoting the

brochure at theti national meetings and in their newsletters, as well as distributing

brochures to their membership. The initial bulk mailing to facilities was accompanied by

a letter of introduction that described the brochure development and encouraged facilities

to use the brochures for patient education. We realize that continued and addition~l

facility support are needed and that facilities which need the most support with the

utilization of the brochure do not belong to or attend the. various national meetings

provided by the renal commwtity. We will consider developing facili~ guidelines

describing brochure disbibution to patients and staff for patient education     The

guidelines, if developed, will be included in future brochure bulk mailings to dialysis

facilities.

                                                                                                    �




Page 3

OIG Recommendation203        roclmre Content and Format)

HCFA should simpli~ the language and concepts as much’as possible in any subsequent
or.revised patient brochures. Consideration might be given to developing alternate
versions of the brochure for different reading levels and to add greater use of color mi
graphics to gain interest and promote patient understanding

J-iCFA Resuonse

We concur. We appreciate the concern expressed regarding the language and concept ~

presented in the brochure The National Renal Physicians’ Association has a professional

level brochure. There is also a high school level brochure on the topic. It is important for

statipatient dialogue to occur if a patient has difficulty understanding this brochure and

needs the concepts explained fi.u-ther. Consideration can also be given to developing

alternate versions of the brochure for different reading levels if needed and resources

permit. Development of numerous versions of the brochure does not guarantee that all

patients WM get a copy, that the facility will educate their patients, or that all patients will

be interested in learning about ESRD. Careful distribution plans would need to be

developed to enable a variety of versions of the brochure to be effectively distributed so

that the brochure supply and the need would coincide.


In considering reaching rend patients Witi information about adequacy of dialysis. the

need for a Spanish version of the brochme became apparent, We have, therefore, had the

bl-ochure translated into Spanish and distributed to facilities with Spanish-speaking

patients. Since all facilities were supposed to receive copies of the English version of the

brochure with the introduction letter, we included information about the availability of

the Spanish translation in the letter. As a result, we have had a number of requests for t}w

Spanish version from facilities who were not on the original Spanish brochure

distribution list


We originally designed the brochure to have Iarger print and brighter, more varied colors.

However, the Government Printing Office ordy allows a two-color process for printing

brochures, and budgetary considerations reduced the size of the brochure. Future

printings of the brochure will be more sensitive to the visually-impaired and more

visually stimulating if at all possible.

Page 4

          ndation 3 (C on tinuirw Pah‘ent Education)
91G NQQXIYIKE

HCFA should encourage continuing cfforts by facilities to educate patients and rcinfbrce
the importance of patient understanding and monitoring of the adequacy of their dialysis.
A training video to in~oduce ardor reinforce the brochure concepts might also prove
effective, based on the suggestions and experiences of some facilities.



We concur. If tiding permits, a training video to educate patients and reinforce the
brochure concepts would probably be very helpfid and well received. Having the
brochure information on video would allow the visually-impaired to either better see the
concepts or at least hear the concepts. SupportirIg patientistaff dialogue wotild still be
needed,

In additioz since facifi~ staff, in conjunction with the patient are required to
periodically review and update the patient’s care p}a~ perhaps staff can be encouraged to
take this opportunity to explain tic information to patients and answer questions or
address any concerns about the information in the brochure,

OIG R ecomm endation 4 (’U e of AdequacvMea sures)

HCFA shouId encourage facilities to calculate dialysis adequacy measures on a monthly
bask and share these numbers with patients on a regular basis in order for the brochure to
achieve its intended impact on patients and facilities.

  /
HCFA Re S?ons e

We, concur, At this time there is no requirement for facilities to measure the adequacy of
dialysis at prescribed intemls, Although the re}ised ESRD Conditions for Coverage,
scheduled for release in early 1997, will require dialysis facilities to calculate the
adequacy of dialysis quarterly, we encourage more frequent calculations as part of the
facilities coWi.nuous quality improvement program.

The Facilities of Achievement Miative will dernonstiate, in volunteer ESRD dialysis
facilities with existing computer capacity, the possibility of collecting medical indicators
on 100 percent patient sample, then collating and analyzing the data and returning it to
the prulicipating facility for use in developing quality improvement interventions. The
clinical indicators of the care received will be submitted to HCFA on a quarterly basis.
Page 5

Technical Comments

The report should assess whether some of comprehension issues of the beneficiaries
might be attributed to a lack of cultural sensitivity in the presentation. Not only is there
the relatively large number of Hispanics in the ESRI) progr~ but also American Indims
and Mican-Amcricarts are represented in the population disproportionately,

We also note that the report failed to mention that there was a Spanish edition of this
publication. TM is particukidy important considering the huge Hispanic community
affected by ESRD.
